                                   SOCIAL SECURITY

MEMORANDUM

Date:   August 19, 2004                                                                Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: The Social Security Administration’s Internal Use of Employees’ Social Security
        Numbers (A-13-04-24046)


        The attached final report presents the results of our audit. Our objectives were to
        determine the extent of the Social Security Administration’s internal use of employees’
        Social Security numbers (SSN) and to evaluate the safeguards used within the Agency
        to protect the confidentiality of these SSNs.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                           S
                                                           Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

       THE SOCIAL SECURITY
        ADMINISTRATION’S
   INTERNAL USE OF EMPLOYEES’
    SOCIAL SECURITY NUMBERS

    August 2004   A-13-04-24046




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE

Our objectives were to determine the extent of the Social Security Administration’s
(SSA) internal use of employees' Social Security numbers (SSN), and to evaluate the
safeguards used within the Agency to protect the confidentiality of these SSNs.

BACKGROUND

The SSN was created in 1936 as a means of tracking workers' earnings and eligibility
for Social Security benefits. Nevertheless, over the years, the SSN has become a
de facto national identifier used by Federal agencies, State and local governments, and
private organizations. The expanded use of the SSN as a national identifier provides a
tempting motive for unscrupulous individuals to acquire an SSN and use it for illegal
purposes.

Federal agencies frequently ask individuals for their SSNs because, in certain
instances, the law requires that they do so or SSNs provide a convenient means of
tracking and exchanging information. Federal agencies have a responsibility to limit the
risk of unauthorized disclosure of SSNs. Although no single Federal law regulates
overall use and disclosure of SSNs by Federal agencies, the Freedom of Information
Act of 1966, the Privacy Act of 1974, and the Social Security Act Amendments of
1990 generally govern disclosure and use of SSNs.

RESULTS OF REVIEW

The SSN is used extensively within SSA’s systems and documents to identify its
employees. Further, SSA has some safeguards in place to protect the confidentiality
of its employees’ SSNs. However, SSA needs to enforce current policies to ensure
SSA employees’ SSNs are protected.

CONCLUSION AND RECOMMENDATIONS

SSA’s extensive use of employee SSNs in its systems and documents increases the
risk that the employee SSN may be accessed by unauthorized personnel. SSA has
mitigated this through some safeguards, but additional actions are needed. With the
increasing impact of identity theft on the public and economy, and as the issuer of
SSNs, SSA should be the model for both the public and private sectors by taking the
leadership role in protecting SSNs, including those of its employees.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                   i
We recommend SSA:

   •   Remind employees to secure any system or document containing employee
       SSNs when these systems or documents are not being used.

   •   Consider using asterisks, if determined to be cost-effective, to hide the employee
       SSN on computer screens and reports in all existing and future systems.
       Asterisks are currently used in the Mainframe Time and Attendance System to
       hide the employee SSN.

   •   Identify the forms that request the employee’s SSN. If the SSN is not required,
       eliminate its use on these forms.

   •   Determine if it is cost beneficial to use an alternative primary identifier for its
       employees, such as the one used in the On-Line University, for all future SSA
       systems. If determined to be cost-beneficial, then implement an alternative
       primary identifier.

   •   Consider and use, as indicated in Agency policy, encryption if feasible and not
       cost prohibitive.

AGENCY COMMENTS
SSA agreed with our recommendations. Further, the Agency agreed that it needed to
exercise due diligence in protecting employee SSNs. The Agency noted that unlike the
private sector, it is bound by Executive Order 9397 and the 1961 Civil Service
Commission directives, which mandate the use of SSNs as the identifier of Federal
employees. As a result, the Agency states that until such time as both directives are
rescinded or modified, it is required to use the SSN as the employee identifying number.

Also, in its response to Recommendation 5, the Agency believes it is already in
compliance with the intent of our recommendation. The Agency indicates the use of
dedicated lines and Connect Direct when transmitting payroll information to the
Department of Interior complies with its policy concerning the transmission of sensitive
data outside the Agency. The text of SSA’s comments is included in Appendix D.

OIG RESPONSE

We agree the Agency is in compliance with its policy concerning the transmission of
sensitive data outside the Agency. Additionally, we agree the use of dedicated lines,
Connect Direct, or other secure transport mechanism(s) will provide some level of
security for the transmitted data. However, we believe the Agency should also encrypt
this sensitive data when transmitted outside the Agency. Data encryption would provide
an additional level of security.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                     ii
                                                                 Table of Contents
                                                                                                              Page
INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

      SSNs Are Used Extensively by SSA to Identify Its Employees .......................3

      SSA Has Implemented Some Safeguards to Protect the Confidentiality of
      Its Employees’ SSNs.......................................................................................4

      SSA Needs to Ensure Policies Protecting Employees’ SSNs are
      Being Enforced................................................................................................6

CONCLUSIONS AND RECOMMENDATIONS.......................................................7

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Prior Office of the Inspector General Review

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)
                                                                         Introduction
OBJECTIVE

Our objectives were to determine the extent of the Social Security Administration’s
(SSA) internal use of employees’ Social Security numbers (SSN) and to evaluate the
safeguards used within the Agency to protect the confidentiality of these SSNs.

BACKGROUND

The SSN was created in 1936 as a means of tracking workers' earnings and eligibility
for Social Security benefits. However, over the years, the SSN has become a de facto
national identifier used by Federal agencies, State and local governments, and private
organizations. The expanded use of the SSN as a national identifier provides a
tempting motive for unscrupulous individuals to acquire an SSN and use it for illegal
purposes.

Federal agencies frequently ask individuals for their SSNs because, in certain
instances, the law requires that they do so or SSNs provide a convenient means of
tracking and exchanging information. While a number of laws and regulations require
the use of SSNs for various Federal programs, they generally also impose limitations on
how those SSNs may be used. Federal agencies have a responsibility to limit the risk
of unauthorized disclosure of SSNs. Although no single Federal law regulates overall
use and disclosure of SSNs by Federal agencies, the Freedom of Information Act of
1966,1 the Privacy Act of 1974,2 and the Social Security Act Amendments of 1990
generally govern disclosure and use of SSNs.

Federal Trade Commission Survey on Identity Theft

According to the Federal Trade Commission’s (FTC) September 2003 survey report on
identity theft “…a total of 4.6 percent of survey participants indicated that they had
discovered they were victims of identity theft in the past year.” 3 The report also
indicated the results of the survey suggest almost 10 million Americans have discovered
that they were victims of some form of identity theft within the last year.4




1
  The Freedom of Information Act, 5 U.S.C. § 552.
2
  The Privacy Act of 1974, 5 U.S.C. § 552a.
3
  FTC – Identity Theft Survey Report, September 2003. The report, which interviewed 4,057 U.S. adults,
was prepared by Synovate, a research firm hired by the FTC. Identity theft occurs when someone uses
your personal information, such as your name, SSN, credit card number or other identifying information,
without your permission to commit fraud or other crimes. The FTC website:
http://www.consumer.gov/idtheft/.
4
  id.


SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                              1
It was estimated that within the last 5 years, approximately 27 million Americans were
victims of identity theft.5 The total loss to businesses last year due to identity theft was
nearly $48 billion, and the loss to consumers was $5 billion.6

Applicable Federal Criteria

Executive Order 9397, which provides SSA the authority to request an individual’s
SSN, states, “…whenever the head thereof finds it advisable to establish a new system
of permanent account numbers pertaining to individual persons, utilize exclusively the
Social Security Act account number.” 7 Moreover, the Privacy Act of 1974 requires that
SSA “…maintain in its records only such information about an individual as is relevant
and necessary to accomplish a purpose of the agency required to be accomplished by
statute or by Executive Order of the President.” 8

Further, the Privacy Act of 1974 regulates Federal agencies’ collection, maintenance,
use and disclosure of personal information maintained by agencies in a system of
records.9 It requires agencies to establish appropriate administrative, technical and
physical safeguards to ensure the security and confidentiality of records and to protect
against any anticipated threats or hazards to their security or integrity, which could
result in substantial harm, embarrassment, inconvenience or unfairness to any
individual on whom information is maintained.

The Social Security Board – Regulation Number 1 states, “It being found by the Social
Security Board that the public interest and the efficient administration of the functions
with which the Board is charged under the Social Security Act require that the
confidential nature of all wage records and other records or information in possession of
the Board, pertaining to any person, be preserved.”10

SSA policy states that an approach must be taken “…to ensure personal data entrusted
to SSA is not compromised, abused or misused by the public or our own employees.” 11
For additional background information, see Appendix B.




5
  id.
6
  id.
7
  Executive Order 9397, November 22, 1943.
8
  5 U.S.C. § 552a.
9
  A system of records is a group of records under the control of any agency from which information is
retrieved by the name of the individual or by some identifying number, symbol, or other identifying
particular assigned to the individual.
10
   Social Security Board Regulation Number 1, adopted June 15, 1937.
11
   Social Security Administration Information Systems Security Handbook, Chapter 1, February 2001.


SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                                2
                                                          Results of Review
The SSN is used extensively within SSA’s systems and documents to identify its
employees. Further, SSA has some safeguards in place to protect the confidentiality of
its employees’ SSNs. However, SSA needs to enforce current policies to ensure SSA
employees’ SSNs are protected.

SSNs ARE USED EXTENSIVELY BY SSA TO IDENTIFY ITS
EMPLOYEES
The SSN is used extensively within SSA’s systems and documents to identify its
employees. The SSN is used as the primary identifier for employees in SSA’s
travel, training, time and attendance, and other human resources management
information systems and documents.12 For example, the SSN is used in SSA’s Human
Resources Management Information System (HRMIS)13 to identify its employees’
personnel actions, and in the Mainframe Time and Attendance System (MTAS) for
processing employee pay and leave information. Employee SSNs are also used on
SSA forms, such as Training Nomination and Authorization, Travel Voucher, and
Administrative Time and Leave Record.14 Additionally, the employee SSN is requested
on various Office of Personnel Management (OPM) forms.15 These forms are
pre-approved by OPM and are used to add and update employee personnel records.

Further, SSA transmits data containing employee SSNs outside the Agency. SSA
personnel stated that the employee SSN is required to interface with other agencies’
computer systems. For example, SSA transmits employee payroll information to the
Department of Interior (DOI)16 and employee benefit program changes to the OPM
using SSNs to identify employees.




12
   Travel Manager, Version 8.1, The Office of Training data, and the Agency’s Mainframe and Attendance
System all use employee SSNs as the primary identifier.
13
   HRMIS is a database that is used for multiple purposes to include personnel research and program
evaluation, management information, equal opportunity statistics, and internal and external reporting.
14
   SSA352-U10 (Training Nomination and Authorization), SF 1012 (Travel Voucher), and SSA 2042
(Administrative Time and Leave Record).
15
   Examples of OPM approved forms are “Health Care Election Form” (SF 2809), and “Request for
Personnel Action” (SF 52).
16
   DOI’s Payroll Operations Division provides payroll services for several Government agencies including
SSA.


SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                               3
SSA’s extensive use of employee SSNs in its systems and documents increases the
risk that the employee SSN may be accessed by unauthorized personnel. Therefore,
the Agency must have the appropriate and cost-effective safeguards in place to protect
the confidentiality of its employees’ SSNs.

SSA HAS IMPLEMENTED SOME SAFEGUARDS TO PROTECT THE
CONFIDENTIALITY OF ITS EMPLOYEES’ SSNs
SSA has some safeguards in place to protect the confidentiality of its employees’ SSNs.
During our review, we observed security controls17 for many of SSA’s systems and
documents that contain Agency employees’ SSNs. These systems and documents
contain sensitive information.18 For example, HRMIS and MTAS require employees to
obtain multiple levels of management approval19 before being granted access to these
applications. Further, MTAS will not display the employee’s SSN on computer screens
or printed reports.20

Moreover, these human resources management information systems require users to
obtain personal identification numbers and passwords. Personal identification numbers
and initial passwords are provided by SSA. Users’ passwords are encrypted, and users
are required to change their password at least every 30 days. If an individual should
obtain unauthorized system access, certain systems produce violation reports, which
are reviewed by SSA management.

In addition to safeguarding data contained in its systems, the Agency is required to
safeguard the confidentiality of sensitive information it transmits to other Federal,
State, and local governments. SSA policy states, “…in all instances where SSA data is
transmitted outside of SSA, encryption must be considered and used if feasible and not
cost prohibitive.” 21




17
   Security controls refer to policies and measures that ensure confidentiality, integrity, and availability of
the information processed and stored by a computer. For example, physical security controls concerns
the use of locks, guards, badges, alarm systems, and related administratively controlled measures to
protect a structure or facility against unauthorized entry and measures to detect and minimize damage
from accident, fire and environmental hazards.
18
   Sensitive information refers to information, the loss or misuse, or unauthorized access to or
modification of which could adversely affect the national interest or the conduct of Federal programs, or
the privacy to which individuals are entitled to under 5 U.S.C. Section 552a (the Privacy Act), but that has
not been specifically authorized under criteria established by an Executive Order or an Act of Congress to
be kept secret in the interest of national defense or foreign policy. For example, SSA’s employees’ Social
Security number, address, and birth date.
19
   Forms SSA-613-U5, Top Secret Resource Access Authorization, and SSA-120-U3, Application for
Access to SSA Systems must be completed and management approved.
20
   Asterisks are used to denote employee SSNs.
21
   SSA Information Systems Security Handbook, Appendix H, September 2003. Encryption denotes
conversion of a plain text, formula, combination or entry code into unintelligible form through the use of
algorithms and keys. Encryption may be performed either by hardware or software.


SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                                     4
We also observed physical security controls within several SSA components. Most of
the areas observed were secure. The rooms and cabinets were locked. These rooms
and cabinets house documents containing sensitive information including SSA
employees’ SSNs.

Besides the physical and computer security controls, SSA also has a computer security
awareness program. The Computer Security Act of 198722 requires every Federal
agency to provide periodic training in computer security awareness and security
practices for all employees involved with the management, use, or operation of
computers within the agency. SSA has developed a security awareness, training, and
education program to assist management in complying with the Computer Security Act.
SSA distributes pamphlets, Commissioner’s bulletins, desk-to-desk bulletins, and videos
to enhance employee security awareness.

We discussed with SSA management the possibility of eliminating the use of the
employee SSN as a primary identifier in Agency systems and forms. SSA management
stated it would not be cost-effective to eliminate the SSN in its existing systems.
Further, SSA management noted many of its forms that require the SSN are mandated
by OPM. Agency management explained it would be cost prohibitive to change its
existing systems to enable the use of another primary identifier instead of the SSN.
However, there have been no studies reflecting the cost of updating SSA’s existing
systems.

Although SSA management rejects the elimination of the SSN as a primary identifier,
the Agency has taken steps to reduce its use of employees’ SSNs. For example, some
SSA managers encourage employees not to provide their SSN on leave slips and
timesheets. Both of these forms request the employee SSN, but the employees’ SSNs
are not necessary for processing these forms. Additionally, SSA has developed certain
systems that allow employees to process personal information without supplying their
SSN. For example, SSA’s “On-Line University” system uses the SSN to interface with
HRMIS. However, SSA’s “On-Line University” system allows SSA employees to use a
unique identifier other than the SSN, to enroll in on-line training courses.

We believe the safeguards implemented by the Agency lowers the risk that the
employee SSN may be compromised. Nevertheless, SSA needs to enforce its policies
to ensure the employee SSN is protected.




22
     Public Law 100-235.


SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)              5
SSA NEEDS TO ENSURE POLICIES PROTECTING EMPLOYEES’ SSNs
ARE BEING ENFORCED
Although SSA has some policies in place to protect the confidentiality of its employees’
SSN, additional enforcement of these policies is needed. During our review, we
observed documents containing employees’ SSNs filed in unlocked cabinets, which
could be accessed by unauthorized personnel. For example, an Automated Clearing
House report, which contains employees’ SSNs, bank account numbers, bank routing
numbers, and employee names, was stored in an unlocked file cabinet in an unlocked
area. We visited the unsecured area after normal duty hours23 and accessed the report
from the file cabinet. In addition, we found other employee files containing sensitive
employee information in unlocked cabinets in an unlocked room. We were able to
access these files while employees were working in the area.

Further we observed, on several occasions, documents containing employee SSNs
lying on tables. These documents contained employee SSNs and Internal Revenue
Service wage information. We also observed information on computer screens which
contained employees’ SSNs. Occasionally, this information was printed and faxed to
employees. For example, an employee can request travel status information, which is
printed from a computer screen and faxed to the employee. This creates a risk that
unintended employees may have access to an employee’s SSN.

We also found instances where the employee SSN is requested on various forms.24
Although SSA is limited in its ability to eliminate the SSN on many forms, we believe
SSA has an opportunity to work within existing laws, regulations, and policies to identify
and eliminate the SSN on forms where the SSN is not required. Further, we observed
invoices from an external entity, which displayed SSA employee names, addresses and
SSNs.

Through discussions with staff in the Office of Telecommunications and Systems
Operations, Division of Network Engineering, we determined not all sensitive data
transmitted externally to other entities are encrypted. SSA transmits employee payroll
information to the DOI. However, those data are not encrypted. Staff in the Office of
Telecommunications and Systems Operations explained they are investigating whether
DOI has the software to facilitate the transmission of encrypted data between SSA and
DOI.

We believe these deficiencies are potential security risks. Employees who do not have
a “need to know”25 may have access to sensitive employee information including the
SSN. This information may be used by unscrupulous employees to acquire an SSN
and use it for illegal purposes.

23
   Normal duty hours are 6:00 a.m. to 6:00 p.m.
24
   SSA-71 Application for Leave; SSA-2042 Administrative Time & Leave Record; SSA-170 Employee
Suggestion Form.
25
   The legitimate requirement of a person or organization to know, access, or possess sensitive or
classified information that is critical to the performance of an authorized, assigned mission.


SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                             6
                                                   Conclusions and
                                                  Recommendations
SSA’s extensive use of employee SSNs in its systems and documents increases the
risk that the employee SSN may be accessed by unauthorized personnel. SSA has
mitigated this through some safeguards, but additional actions are needed. With the
increasing impact of identity theft on the public and economy, and as the initiator of
SSNs, SSA should become the model for both the public and private sectors by taking
the leadership role in protecting SSNs, including those of its employees.

We recommend SSA:

   1. Remind employees to secure any system or document containing employee
      SSNs when these systems or documents are not being used.

   2. Consider using asterisks, if determined to be cost-effective, to hide the employee
      SSN on computer screens and reports in all existing and future systems.
      Asterisks are currently used in the Mainframe Time and Attendance System to
      hide the employee SSN.

   3. Identify the forms that request the employee’s SSN. If the SSN is not required,
      eliminate its use on these forms.

   4. Determine if it is cost beneficial to use an alternative primary identifier for its
      employees, such as the one used in the On-Line University, for all future SSA
      systems. If determined to be cost-beneficial, then implement an alternative
      primary identifier.

   5. Consider and use, as indicated in Agency policy, encryption if feasible and not
      cost prohibitive.

AGENCY COMMENTS

SSA agreed with our recommendations. Further, the Agency agreed that it needed to
exercise due diligence in protecting employee SSNs. The Agency noted that unlike the
private sector, it is bound by Executive Order 9397 and the 1961 Civil Service
Commission directives, which mandate the use of SSNs as the identifier of Federal
employees. As a result, the Agency states that until such time as both directives are
rescinded or modified, it is required to use the SSN as the employee identifying number.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                    7
Also, in its response to Recommendation 5, the Agency believes it is already in
compliance with the intent of our recommendation. The Agency indicates the use of
dedicated lines and Connect Direct when transmitting payroll information to the DOI
complies with its policy concerning the transmission of sensitive data outside the
Agency. The text of SSA’s comments is included in Appendix D.

OIG RESPONSE

We agree the Agency is in compliance with its policy concerning the transmission of
sensitive data outside the Agency. Additionally, we agree the use of dedicated lines,
Connect Direct, or other secure transport mechanism(s) will provide some level of
security for the transmitted data. However, we believe the Agency should also encrypt
this sensitive data when transmitted outside the Agency. Data encryption would provide
an additional level of security.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)              8
                                           Appendices




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)
                                                                           Appendix A
Acronyms
 DOI               Department of Interior

 FTC               Federal Trade Commission

 GAO               Government Accountability Office

 HRMIS             Human Resources Management Information System

 MTAS              Mainframe Time and Attendance System

 OIG               Office of the Inspector General

 OPM               Office of Personnel Management

 SSA               Social Security Administration

 SSN               Social Security Number

 U.S.C.            United States Code




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)
                                                                                Appendix B
Background, Scope and Methodology
Government Accountability Office

The Government Accountability Office, formerly known as the General Accounting
Office (GAO), found1 that in the course of using Social Security numbers (SSN) to
administer programs and as employers, Federal agencies sometimes display SSNs on
documents, such as eligibility cards or employee badges. As a result, the SSNs can be
seen by others who may not have a need to know. GAO also found that, when
requesting SSNs, agencies are not consistently providing individuals with information
required by Federal law.2 Although agencies that use SSNs to provide benefits and
services are taking steps to safeguard the numbers from improper disclosure, GAO
identified potential weaknesses in the security of information systems at all levels of
Government.

Office of the Inspector General

In December 2002, the Office of the Inspector General reported,3 “…although the
Social Security Administration (SSA) has controls over the access, disclosure and use
of SSNs by external entities, there was concern about the Agency's exposure to
improper SSN attainment and misuse.” There were several instances in which SSA
personnel unnecessarily displayed SSNs on documents sent to external entities that
may not have had a need to know. In addition, there were instances in which SSA
personnel were not adequately monitoring contractors' access and use of SSNs.

Scope and Methodology

To accomplish our objectives, we:

    •   Identified and reviewed applicable laws and regulations;
    •   Identified and reviewed relevant SSA policies and procedures;
    •   Identified and reviewed prior relevant audits;
    •   Interviewed SSA personnel responsible for controls over the use of SSNs;
    •   Identified and reviewed pertinent SSA employee forms that include SSNs;
    •   Identified and reviewed pertinent SSA employee forms that include unique
        identifiers other than SSNs;




1
  Social Security Numbers – Government Benefits from SSN Use but Could Provide Better Safeguards,
GAO-02-352, May 2002.
2
  The Privacy Act of 1974, 5 U.S.C. § 552a.
3
  Review of Social Security Administration's Controls Over the Access, Disclosure, and Use of Social
Security Numbers by External Entities, (A-08-02-22071), December, 2002. See Appendix C.

SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                          B-1
   •   Determined the Agency’s internal usage of SSNs; and
   •   Observed the safeguards implemented by the Agency.

We performed our review at SSA Headquarters in Baltimore, Maryland. The entities
reviewed were the Office of Personnel, and Office of Training within the Office of
Human Resources; the Office of the Chief Information Officer; the Office of Public
Disclosure within the Office of General Counsel; and the Office of Financial Policy and
Operations within the Office of Finance, Assessment and Management. We performed
our audit from September 2003 through January 2004 in accordance with generally
accepted government auditing standards.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)            B-2
                                                                           Appendix C
Prior Office of the Inspector General Review

Review of Social Security Administration’s Controls over the
Access, Disclosure, and Use of Social Security Numbers by
External Entities (A-08-02-22071), issued December 30, 2002

To view the appendices for this report, please visit our web site at
www.socialsecurity.gov/oig/ or click on the following link
http://www.socialsecurity.gov/oig/ADOBEPDF/A-08-02-22071.pdf. If you do not have
access to the Internet, you may request a copy of the report by contacting the Office of
the Inspector General’s Public Affairs Specialist at (410) 966-1375.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)
                                                                           Appendix D
Agency Comments




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)
                                     SOCIAL SECURITY


MEMORANDUM                                                                          33255-24-1142


        July 27, 2004                                                        Refer To: S1J-3

To:     Patrick P. O'Carroll, Jr.
        Acting Inspector General

From:   Larry W. Dye /s/
        Chief of Staff

Subject: Office of the Inspector General (OIG) Draft Report "Social Security Administration's
        Internal Use of the Social Security Number" (A-13-04-24046)--INFORMATION


        We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
        content and recommendations are attached.

        Please let me know if you have any questions. Staff inquiries may be directed to
        Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

        Attachment:
        SSA Response




        SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “THE SOCIAL SECURITY ADMINISTRATION’S (SSA) INTERNAL USE OF
EMPLOYEES’ SOCIAL SECURITY NUMBERS (SSN)” (A-13-04-24046)


Thank you for the opportunity to review and comment on the subject report. We
appreciate OIG’s continuing efforts to identify opportunities to minimize improper
disclosure of our employees’ SSNs. We agree that we need to exercise due diligence in
protecting the SSNs of our employees; however, unlike the private sector, we are bound
by the 1943 Executive Order number 9397 and the 1961 Civil Service Commission (now
known as the Office of Personnel Management) directives, both of which mandate the
use of the SSN as the identifier of Federal employees. Therefore, until such time as
both directives are rescinded or modified, we are required to use the SSN as the
employee identifying number. From an overall security perspective, we recognize that
limiting the display of an employee’s SSN is a prudent measure, and will consider doing
so as time and resources allow. Our responses to the specific recommendations are
provided below:

Recommendation 1

SSA should remind employees to secure any system or document containing employee
SSNs when these systems or documents are not being used.

Response

We agree. Our Office of Systems Security Operations Management and the Agency’s
Chief Security Officer already issue periodic and ad hoc bulletins to SSA employees
concerning systems security matters. Generally, the bulletins focus on systems security
issues impacting a wide range of users and developers, or are applicable to the entire
Agency. We have established systems security policies and procedures that require a
suite of controls over systems that contain sensitive data, such as SSA clients' SSNs
and SSA employee SSNs. The Information Systems Security Handbook, and Agency
policy governing systems development (i.e., the Systems Development Life Cycle)
require documentation of security risk, security plans to address those risks, access
controls, audit trails, and other controls in the development of SSA systems. Since
there are no findings that indicate these policies and procedures are not being followed,
we believe the existing processes are effective.

We recognize that the functions described above are not substitutes for staff taking
responsibility for the security of the data they manage and the systems they develop,
whether programmatic or administrative, and whether the data is handled electronically
or by hardcopy. Therefore, we will take steps to ensure managers and staff adhere to
the existing procedures and handling of documents associated with administrative
activities.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)             D-2
Recommendation 2

SSA should consider using asterisks, if determined to be cost-effective, to hide the
employee SSN on computer screens and reports in all existing and future systems.
Asterisks are currently used in the Mainframe Time and Attendance System to hide the
employee SSN.

Response

We agree that from an overall security perspective, the use of asterisks to mask on-
screen SSNs is a prudent protection measure. We will consider the costs and benefits
of using asterisks during the development of future systems enhancements.

Recommendation 3

SSA should identify the forms that request the employee’s SSN. If the SSN is not
required, eliminate its use on these forms.

Response

We agree that from an overall security perspective the elimination of the collection of
SSNs on forms where it is not required is a prudent protection measure. As we review
and modify internal forms in the future, we will consider the continuing need to capture
the SSN.

Recommendation 4

SSA should determine if it is cost beneficial to use an alternative primary identifier for its
employees, such as the one used in the On-Line University for all future SSA systems.
If determined to be cost-beneficial, then implement an alternative primary identifier.

Response

We agree. However, as noted above, we are bound by the Executive Order number
9397 and Civil Service Commission (now known as the Office of Personnel
Management) mandate to use the SSN as the identifying number for Federal
employees. In the future, on a case-by-case basis, we will assess the feasibility of
using an alternative primary identifier such as the one used in the On-Line-University.

Recommendation 5

SSA should consider and use, as indicated in Agency policy, encryption if feasible and
not cost prohibitive.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)                   D-3
Response

We agree. However, we believe we are already in compliance with the intent of the
recommendation. Our current policy (published in 2003 - Appendix H of the Systems
Security Handbook) states:

    In all instances where SSA data is transmitted outside of SSA, encryption must be
    considered and used if feasible and not cost prohibitive.

    Any sensitive data transmitted outside of SSA’s firewall must be encrypted. This is
    to be accomplished by dedicated lines, use of connect direct or other secure
    transport mechanism(s). The method of transport used is dependent upon the
    application, data transmitted and the receiving party.

Because we currently use dedicated lines and Connect Direct when transmitting payroll
information to the Department of Interior (the example cited in the report), we believe
that we are in compliance with the policy as written.


In addition to the items listed above, SSA also provided technical comments, which
have been addressed, where appropriate, in this report.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)             D-4
                                                                           Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

  Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

  Brian Karpe, Audit Manager, (410) 966-1029

Acknowledgments

In addition to those named above:

  Joe Borowy, Auditor-in-Charge

  Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-1375. Refer to Common Identification
Number A-13-04-24046.




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)
                               DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board




SSA’s Internal Use of Employees’ Social Security Numbers (A-13-04-24046)
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
